0

No.

IN THE
SUPREME COURT OF THE UNITED STATES

Timothy D. Leners; Pro-Se Petitioner
VS.

State of Wyoming; Wyoming Attorney General, Respondent
PROOF OF SERVICE
I Timothy D. Leners, do swear or declare that on this date, $ug d, 2021, as required by
Supreme Court Rule 29 I have served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA
PAUPERIS and PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding or that
party’s counsel, and on every other person required to be served, by depositing an envelope containing the
above documents in the United States mail properly addressed to each of them and with first-class postage
prepaid, or by delivery to a third-party commercial carrier for delivery within 3 calendar days.
/ The names and addresses of those served are as follows:
Clerk, Supreme Court of the United States
One First Street
Washington, D. C. 20543

/ ^cCE/VEo

Wyoming Attorney General
2320 Capitol Ave.
Cheyenne, WY 82002

/ AU6 - 9 2021

I declare under penalty of perjury that the foregoing is true and correct.
Executed on

/7UO) JL

,20 A!
(Signature;
(Name)

Timothy D. Leners

O

